The Department of Justice Office of the Inspector General (OIG) today released a report
examining the Drug Enforcement Administration’s (DEA) accounting for Permanent Change of
Station (PCS) transfers. The OIG’s report found that the DEA established sound practices for
the management of transfer activities and appeared to have adequate controls over resources
expended on PCS transfers.

As the primary federal law enforcement agency charged with enforcing the controlled
substances laws and regulations of the United States, the DEA routinely transfers personnel
among its domestic and international offices to accomplish its mission. This is done through
PCS transfers, which often involve numerous expenses, including air travel for the transferee
and dependents, shipment and storage of household goods, compensation for the sale or
purchase of a residence, and temporary housing costs. As of January 23, 2013, the DEA’s PCS
expenditures for transfers initiated in fiscal year (FY) 2010 – the most recent year for which
PCS-related expenses are generally complete and available – amounted to $35,745,853. On
average, each PCS transfer that year cost the DEA $45,015, with a median cost of $34,455.

The OIG audit tested PCS-related documents that included expenditure records totaling more
than $2 million and identified only five discrepancies totaling $1,656; the DEA has taken
appropriate steps to address all five discrepancies. The remaining PCS expenditures we tested
were all allowable and in accordance with the General Services Administration’s (GSA) Federal
Travel Regulation.

We also noted that, in addition to appropriately monitoring its primary GSA-approved
contractors, the DEA appeared to have taken initiative in its management of PCS transfer
activities by negotiating reduced rates with contractors, developing an electronic system for
transfer activities, and maintaining a library of DEA-specific PCS-related handbooks, all resulting
in potentially significant monetary savings for the government.

Our audit of DEA’s management of PCS transfers did not include an evaluation of the
justifications for the transfers or their appropriateness, and it did not assess the DEA’s use of,
or expenses relating to, other mechanisms federal agencies use to transfer personnel, such as
temporary duty assignments.

The report can be found on the OIG’s website
at: http://www.justice.gov/oig/reports/2013/a1401.pdf.
